Office of Inspector General




       http://oig.lsc.gov/
                                                             October 30, 1998




                  TO THE BOARD OF DIRECTORS
            OF THE LEGAL SERVICES CORPORATION
                                 AND
                 THE UNITED STATES CONGRESS




      This Semiannual Report on the activities of the Office of Inspector
General of the Legal Services Corporation covers the six-month period
from April 1, 1998 through September 30, 1998. Section 5 of the
Inspector General Act of 1978 requires that the Board of Directors, as
the designated Federal entity head, transmit this report to the
appropriate committees of the Congress within 30 days, together with its
report commenting on the contents of the Report.




                                         Edouard R. Quatrevaux
                                         Inspector General
                      TABLE OF CONTENTS




EXECUTIVE SUMMARYii

INTRODUCTION 1

AUDITS2
 Summary Report on Independent Public Accountants' Reports2
 Audit Service Review - Neighborhood Legal Services Program2
 Peer Review3
 Prior Period Recommendations4
 Audit Reports Issued4

INVESTIGATIVE ACTIVITIES5

LEGISLATIVE AND REGULATORY REVIEW7

PROGRAM ASSESSMENT8

TABLE I9

TABLE II10

TABLE III11
                        EXECUTIVE SUMMARY




      An oversight report summarizing 205 grantee audit reports submitted
by independent public accountants was issued. (Page 2)


      An audit service review determined that compliance testing by the
grantee's independent public accountant was inadequate. (Page 2)


      A Peer Review found that the LSC OIG had an adequate quality
control system and that the OIG had complied with Government Auditing
Standards. (Page 3)


      One prosecutive referral was made, and a conviction was obtained
in a case previously referred. (Page 5)




                                    ii
INTRODUCTION




       Corporate Structure

              The Board of Directors of the Corporation is composed of 11
       members appointed by the President of the United States with the advice
       and consent of the Senate. The Board sets general policy and oversees the
       management of the Corporation. The Inspector General reports directly to
       the Board in its capacity as head of the entity. The Board also appoints the
       President of the Corporation, who serves as the principal management
       official of the Corporation.


       Grant-Making Activities

              The Corporation is authorized by Congress to make grants and
       contracts to support the provision of civil legal assistance to clients who
       meet eligibility requirements. The Corporation makes grants to entities that,
       in turn, provide legal assistance to indigent persons throughout the United
       States, Puerto Rico, the U.S. Virgin Islands, Guam, and Micronesia.


       Certification of Independence

              Inspector General operations in this period were free of personal or
       organizational impairment.




- 1-
                                         AUDITS



       Two audit reports were issued in this period. Five additional audits of grantee case
statistical reporting accuracy were begun, as were eight audit service reviews. The Office
of Inspector General (OIG) also was the subject of a Peer Review.


Summary Report on Independent Public Accountants' Reports

       The OIG issued an oversight report, “Results of Recipient Audit Reports for the Year
Ended December 31, 1997.” This report summarized our review of 205 grantee audit
reports submitted by the independent public accountants (IPAs) performing the audits.
The IPAs reported 24 significant findings relating to 15 grantees. None of the findings
were for noncompliance with prohibitions and restrictions on the provision of legal
services. Most of the findings described internal control weaknesses or reported missing
documentation.

Audit Service Review - Neighborhood Legal Services Program

        Audit service reviews (ASRs) aim to confirm the reliability of grantee audits and
will become an integral part of our compliance oversight system. OIG auditors review the
independent auditors’ workpapers to ensure that grantee compliance with laws and
regulations was adequately tested.


       Our first ASR covered the audit of Neighborhood Legal Services Program,
Washington DC. The firm Lucas, Tucker, P.C., performed the audit and reported that the
grantee had complied with laws and regulations applicable to LSC grantees. However, our
review of Lucas Tucker’s workpapers disclosed that compliance testing was inadequate
and that the audit report could not be relied on by LSC to assure the auditee’s compliance.
The audit firm agreed to perform additional work, and subsequently reported its successful
completion. The OIG will review the auditor’s work again in the next period.


- 2-
Peer Review

       The Office of Inspector General of the Pension Benefit Guaranty Corporation
conducted a Peer Review of the LSC OIG. Federal OIGs are required by Government
Auditing Standards to have an external review performed every three years.             The
Executive Council on Integrity and Efficiency arranges the assignment of an OIG to
perform the peer review.


       The Peer Review covered the period October 1996 to September 1997, and
determined that the Legal Services Corporation OIG had an adequate audit quality control
system and had satisfactorily followed Government Auditing Standards.




       _      AUDIT REPORTS
                   Open at beginning of reporting period                         6*
                   Issued during reporting period                                4
                   Closed during reporting period                              <3>

                     Open at the end of reporting period                           7

       _      RECOMMENDATIONS TO LSC GRANTEES
                  Pending beginning of reporting period                       14
                  Reported during this period                                  0
                  Closed during reporting period                            <14>
                  Pending at end of reporting period                           0

       _     RECOMMENDATIONS TO LSC MANAGEMENT
                    Pending beginning of reporting period                     11
                    Reported during this period                               3
       Closed during reporting period                     <1>
                    Pending at end of reporting period                        13




- 3-
*Corrects ending balance from prior reporting period.




- 4-
Prior Period Recommendations

        There were eight open recommendations from prior reporting periods. They are
as follows:

       Summary Report on Audits of Selected Grantees for Compliance with
         Selected Regulations. One recommendation on timekeeping procedures
         remains open. A revision to the timekeeping regulation is under
         consideration by the Board of Directors.

       Report on Inspection of Alternative Work Arrangements.        Seven
         recommendations to improve LSC's alternative work arrangements
         program remain open. A new personnel manual is being drafted and is
         expected to address the recommendations.


Audit Reports Issued


       Results of Recipient Audit Reports for the Year Ended December 31, 1997

       Review of Lucas Tucker Work Papers on the Audit of Neighborhood Legal
         Services Program's Compliance with Laws and Regulations

       Management Advisory on Mid-Hudson Legal Services and LSC Real Estate
         Policy

       Management Advisory on the Audit Service Review of the Compliance Audit
         of Neighborhood Legal Services Program




- 5-
                             INVESTIGATIVE ACTIVITIES




             Twenty-four cases were opened and 15 cases were closed in this
       reporting period. The majority of the cases resulted from information on
       fraud and theft provided by grantee organizations in accordance with grant
       assurances. The remainder resulted from information obtained from other
       sources, including referrals from LSC management. The OIG Hotline was
       contacted 15 times.


             Falsification of educational loan reimbursement documents by an
       employee of a grantee in Georgia was referred to the U.S. Attorney’s Office
       for prosecution.


             A former employee of a grantee in Connecticut plead guilty to
       misappropriation of approximately $25,000 in grant funds, and was
       sentenced to two years' probation and ordered to make restitution.




- 6-
 INVESTIGATIVE CASELOAD
       Open at beginning of reporting period                12
       Opened during reporting period                       24
       Closed during reporting period                     <15>
       Open at end of reporting period                      21

 INVESTIGATIONS OPENED
       Relating to LSC                                       7
       Relating to LSC Grantees                             17

 RECOMMENDATIONS TO MANAGEMENT FOR CORRECTIVE ACTION
      Reported during this reporting period 0
      Pending from previous period                           0
      Closed during this period                              0

        Pending at end of reporting period                   0

 PROSECUTIVE ACTIVITIES
      Referred for prosecution this reporting period         1
      Prosecution declined (from prior period referral)      0
      Pending Action                                         1
      Convictions                                            1




- 7-
                 LEGISLATIVE AND REGULATORY REVIEW




             The OIG continued its involvement in LSC's regulatory process in the
       current reporting period by providing LSC management with comments on
       all drafts of regulations. OIG suggestions were aimed at ensuring that the
       regulations implement the intent of Congress, provide clear guidance, and
       facilitate both compliance and the monitoring of compliance of LSC
       recipients. The OIG also provided comments on the interpretive guidance
       which LSC management provided to grantees.


             Also in this reporting period, the OIG presented a proposed regulation
       which would satisfy a statutory requirement that the OIG develop rules of
       practice to implement its authority to debar, suspend and remove the
       auditors performing the annual financial statement audits of LSC grantees.




- 8-
                                         PROGRAM ASSESSMENT




                Work continued on a review of the role of client-eligibles in
       establishing local priorities for legal services grantees. The report will be
       issued in the next reporting period.


                This review is the first in a research agenda set forth in the OIG Strategic Plan (1999-2004).
       Future reviews will deal with the effects of brief services on clients, the effectiveness of Private Attorney
       Involvement (PAI) in serving low-income clients, and the extent to which client goals are represented and
       client satisfaction with the services received.




- 9-
                                                  TABLE I

                              Audit Reports Issued with Questioned Costs
                               for the Period Ending September 30, 1998


                                                      NUMBER      QUESTIONED   UNSUPPORTE


  A.      For which no management decision                  0          $0          $0
          has been made by the commence-
          ment of the reporting period.
  B.      Reports issued during the reporting               1       $607,735       $0
          period


          Subtotals (A + B)                                 1       $607,735       $0


  LESS:

  C.      For which a management decision                   1       $607,735       $0
          was made during the reporting period:

          (i) dollar value of recommendations               0          $0          $0
                    that were agreed to by
                    management
  (ii)    dollar value of recommendations that              1       $607,735       $0
                   were not agreed to by
                   management
  D.      For which no management decision                  0          $0          $0
          had been made by the end of the
          reporting period
          Reports for which no management                   0          $0          $0
          decision had been made within six
          months of issuance




- 10-
                                                    TABLE II

                         Audit Reports Issued with Funds to be Put to Better Use
                                for the Period Ending September 30, 1998



                                                           NUMBER              DOLLAR
                                                           REPORTS              VALUE

  A.       For which no management decision                    0                   $0
           has been made by the
           commencement of the reporting
           period.
  B.       Reports issued during the reporting                 0                   $0
           period


           Subtotals (A + B)                                   0                   $0


  LESS:
  C.       For which a management decision                     0                   0
           was made during the reporting period:
             (I) dollar value of recommendations               0                   $0
                       that were agreed to by
                       management
          (ii) dollar value of recommendations
                       that were not agreed to by              0                   $0
                       management
  D.       For which no management decision                    0                   $0
           had been made by the end of the
           reporting period
           Reports for which no management                     0                   $0
           decision had been made within six
           months of issuance




- 11-
                                                 TABLE III

                                     Index to Reporting Requirements
                                         of the Inspector General




        IG ACT***                         REPORTING REQUIREMENT                           PAGE
       REFERENCE

       Section 4(a)(2)       Review of legislation and regulations                         7
       Section 5(a)(1)       Significant problems, abuses, and deficiencies               None
       Section 5(a)(2)       Recommendations with respect to significant problems,        None
                             abuses, and deficiencies
       Section 5(a)(3)       Prior significant recommendations on which corrective         4
                             action has not been completed
       Section 5(a)(4)       Matters referred to prosecutive authorities                   5
       Section 5(a)(5)       Summary of instances where information was refused           None
       Section 5(a)(6)       List of audit reports by subject matter, showing dollar      9, 10
                             value of questioned costs (including a separate category
                             for the dollar value of unsupported costs) and funds to be
                             put to better use
       Section 5(a)(7)       Summary of each particularly significant report              2,3,4
       Section 5(a)(8)       Statistical table showing number of audit reports and         9
                             dollar value of questioned costs
       Section 5(a)(9)       Statistical table showing number of reports and dollar        10
                             value of recommendations that funds be put to better use
      Section 5(a)(10)       Summary of each audit issued before this reporting period    None
                             for which no management decision was made by the end
                             of the reporting period
      Section 5(a)(11)       Significant revised management decisions                     None
      Section 5(a)(12)       Significant management decisions with which the              None
                             Inspector General disagrees



***Refers to sections in the Inspector General Act of 1978, as amended.




                                                  - 11 -
